OIG Investigative Reports, Shavon Casson Sentenced
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
April 4, 2007
United States Attorney
Western District of Wisconsin
(608) 264-5158
TTY (608) 264-5006
Contact Person:
Stephen Ehlke
Peter M. Jarosz
Assistant United States Attorney
(608) 264-5158
Shavon Casson Sentenced
Madison, Wisconsin  - Madison, Wisconsin -- Erik C. Peterson, United States Attorney for the Western District of Wisconsin, announced that Shavon Casson, 26, of Rockford, Illinois, was sentenced today by U.S. District Judge Barbara B. Crabb to 65 months in federal prison, without parole, for identity theft, theft by fraudulent use of a social security number, and student loan fraud. Casson was also ordered to pay a total of $40,785.16 in restitution to the following victims:
U.S. Department of Education - $18,432.00
Wells Fargo Bank - $8,603.61
Park Bank - $12,888.55
Fiduciary Real Estate Development, Inc. - $861.00
Casson pleaded guilty to these charges on January 29, 2007.
In November and December 2004, Casson used the identities of her dead sister
and cousin to obtain fraudulent student loans. In 2006, Casson was living in Fitchburg
under another assumed identity and she fraudulently used that person's social
security number to open bank accounts and gain employment. While employed at a
local nursing home under the assumed identity, Casson stole a 73-year old resident's
debit card and made over $12,000 in purchases in thirteen days.
The charges against Casson were the result of an investigation conducted by U.S.
Department of Education and the Madison Police Department. The prosecution of the
case has been handled by Assistant U.S. Attorney Rita M. Rumbelow.
Printable view
Share this page
Last Modified: 04/11/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov